           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     HEARING OFFICE PERFORMANCE
            AND STAFFING


     February 2010   A-12-08-28088




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   February 1, 2010                                                                     Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Hearing Office Performance and Staffing (A-12-08-28088)

        OBJECTIVE

        Our objective was to determine the staffing ratio and combination of staff skills in the
        Office of Disability Adjudication and Review’s (ODAR) hearing offices that maximize
        hearing office performance.

        BACKGROUND

        ODAR administers the hearings and appeals program for the Social Security
        Administration (SSA). Administrative law judges (ALJ) conduct hearings and issue
        decisions. The hearing process begins after an applicant for benefits appeals a denial
        by a disability determination services (DDS). 1

        In performing their duties, ALJs are assisted by decision writers and other support
        staff. 2 Decision writers draft and write ALJ decisions, screen claims, and, in the case of
        senior attorney adjudicators, issue favorable decisions. 3 Other support staff 4 conduct
        initial case screening and preparation, maintain a control system for all hearing office
        cases, conduct pre-hearing case analysis, develop additional evidence, schedule
        hearings, and prepare notices.



        1
         Each DDS is responsible for determining claimants’ disabilities and ensuring that adequate evidence is
        available to support its determinations.
        2
         Hearing offices also have a management team, including the Hearing Office Chief ALJ and Hearing
        Office Director, who supervise, plan, organize, and control operating activities in a hearing office.
        3
         To increase the number of decisions issued, SSA’s final rule extending the sunset date of the Senior
        Attorney Adjudicator authority to August 10, 2011, was published on July 13, 2009, in the Federal
        Register (FR), 74 FR 33327.
        4
         Other support staff includes group supervisors, attorney advisors, paralegal analysts, case technician
        cadre, case intake specialists, receptionists, and contact representatives. See Appendix B for a
        description of the duties of hearing office ALJs, management, decision writers and other support staff.
Page 2 - The Commissioner


In March 2009, SSA’s Commissioner testified 5 that about 4.5 staff per ALJ (referred to
as the staffing ratio) was necessary to maximize the number of legally sufficient
hearings and decisions by ALJs. In this context, “staff” represents both decision writers
and other support staff. Moreover, in a Fiscal Year (FY) 2009 memorandum, 6 ODAR’s
Deputy Commissioner recommended the Regions hire 1.5 decision writers per ALJ and
2.5 other support staff per ALJ (referred to as the staffing mix ratio), thereby giving
additional definition to the Commissioner’s staffing ratio goal. 7

RESULTS OF REVIEW
In FY 2009, as a result of additional Agency funding, ODAR increased the number of its
ALJs to approximately 1,200 (about a 19-percent increase since FY 2000) and the
number of its hearing office managers and support staff to about 6,200 (almost a
25-percent increase over the same period). By July 2009, ODAR’s staffing ratio was
about 5.1, exceeding the Agency’s national goal of 4.5 staff per ALJ. However, our
review of ODAR’s staffing reports found that 42 hearing offices did not meet the national
staffing ratio goal, and 7 of those hearing offices had staffing ratios below 4.0. In
addition, ODAR’s staffing ratio had not been adjusted to reflect attorney adjudicators
who perform two roles—staffing duties when drafting decisions and ALJ duties when
issuing fully favorable on-the-record decisions.

In terms of the staffing mix at hearing offices, we found that the hearing offices that met
or exceeded the 1.5 decision writers-per-ALJ staffing mix goal had, on average, an
almost 9-percent higher productivity rate than those hearing offices with a ratio less than
the goal. We did not find similar productivity differences for the other support staffing
mix goal. However, 36 hearing offices did not meet the decision writer staffing mix goal,
including most of the hearing offices in the San Francisco Region. ODAR managers
told us they had difficulty achieving an ideal staffing mix for their offices.

To assist hearing offices in meeting their staffing and workload goals, ODAR is
considering the addition of centralized pulling and writing units. These units can
supplement staffing and space shortages in hearing offices while providing
management with greater flexibility to address unforeseen workload changes. Finally,
while the Commissioner has set a staffing ratio goal of 4.5 staff per ALJ, adding the two
ODAR staffing mix goals sums to only 4.0 staff per ALJ. At the time of our review,
ODAR had not established any clear guidance as to how this 0.5 staff allocation should
be used.

5
  Hearing on Disability Backlogs and Related Service Delivery Issues, Prepared Testimony of
Michael J. Astrue, Commissioner of Social Security, before the Subcommittee on Social Security and
Income Security and Family Support, House Committee on Ways and Means, March 24, 2009.
6
 FY 2009 Hiring Authority and Guidance – Action, Memorandum from the Deputy Commissioner for
Disability Adjudication and Review to Regional Chief Administrative Law Judges and Regional
Management Officers, February 27, 2009.
7
 ODAR began calculating the decision writer per ALJ and other support staff per ALJ ratios in
January 2009.
Page 3 - The Commissioner



HEARING OFFICE STAFFING TRENDS

In FY 2009, the American Recovery and Reinvestment Act of 2009 8 (ARRA) provided
SSA $500 million to process its increasing retirement and disability backlogs. Using
ARRA funds, ODAR hired 550 new employees as well as 35 ALJs in FY 2009. In
addition to these 585 new hires, ODAR hired 899 support staff and 112 ALJs in the
Regions and National Hearing Centers 9 using funds from its FY 2009 appropriation. 10
These new hires assisted hearing offices in each of the 10 Regions. In FY 2008, ODAR
hired 190 ALJs and 581 hearing office support staff.

As a result of hiring in recent years, the number of ALJs increased by about 19 percent
compared to FY 2000 levels (see Figure 1). 11 ODAR had 1,007 ALJs at the end of
FY 2000, but it increased its ALJ corps to approximately 1,200 by July 2009. 12 In
addition, since FY 2000, hearing office managers and support staff levels rose to about
6,200—an increase of about 25 percent.




8
    Public Law Number 111-5, Title VIII.
9
  National Hearing Centers using video conferencing technology are operating in Albuquerque, New
Mexico; Baltimore, Maryland; Chicago, Illinois; and Falls Church, Virginia. A fifth National Hearing Center
is planned for St. Louis, Missouri, in FY 2010.
10
 For further information, see our December 2009 report, The Office of Disability Adjudication and
Review's Staffing Plans Under the American Recovery and Reinvestment Act (A-12-09-29140).
11
   Reductions in the ALJ levels during FYs 2001 to 2003 occurred because of a Merit Systems Protection
Board decision that closed the ALJ register to hiring. See Azdell v. Office of Personnel Management, 87
M.S.P.R. 133 (2000), aff’d on reconsideration, 89 M.S.P.R. 88 (2001), rev’d sub nom. Meeker v. Merit
Systems Protection Board, 319 F.3d 1368 (Fed. Cir. 2003), cert. denied. Azdell v. James, 540 U.S. 1218
(2004). When the register was closed, ODAR lost almost 200 ALJs through normal attrition. SSA was
able to hire ALJs after the litigation concluded.
12
   All hiring figures are as of July 4, 2009, though ODAR added more ALJs and staff throughout the rest
of FY 2009. At the end of FY 2009, ODAR had 7,642 total staff in its hearing offices, including
1,268 ALJs.
Page 4 - The Commissioner


                                   Figure 1: Percent Changes in Number of ALJs and
                                           Hearing Office Managers and Staff
                                                      (Since FY 2000-Base Year)

                         25%
     Percentage Change



                         20%

                         15%

                         10%

                          5%

                          0%
                            2000    2001      2002      2003     2004      2005    2006     2007         2008    As of
                         -5%
                                                                                                                July 4,
                         -10%                                                                                    2009
                                                                 Fiscal Year
                                   All Hearing Office Managers and Staff     Administrative Law Judges



HEARING OFFICE STAFFING RATIOS

As of July 4, 2009, ODAR’s staffing ratio was about 5.1, thereby exceeding the 4.5 goal
set by the Commissioner. Since our previous staffing report, ODAR had changed the
staffing ratio formula in terms of how it counts managers. In addition, ODAR needed to
consider the various roles of attorney adjudicators in the overall staffing ratio.

Current Staffing Ratio

In our previous report on staffing, 13 we recommended that SSA consider developing an
ideal staffing ratio for its hearing offices. Since our report was issued, the
Commissioner has testified to the Congress about establishing a staffing ratio goal of
4.5 staff per ALJ. 14 As of July 2009, ODAR’s additional hiring has increased the
national staffing ratio to about 5.1, thereby exceeding the 4.5 staffing goal. The staffing
ratios since FY 2006 are illustrated in Table 1.




13
  SSA, Office of the Inspector General (OIG), The Effects of Staffing on Hearing Office Performance
(A-12-04-14098), March 2005.
14
   On November 23, 2009, ODAR’s Deputy Commissioner issued staffing guidance to the Regions where
he stated that, “We understand that individual hearing offices may still have significant space limitations.
In such situations, the minimum support staff per ALJ ratio in hearing offices remains 4.0.”
Page 5 - The Commissioner


                                     Table 1: Staffing Ratios
                                            (as of July 2009)
                                                                 National
                              Fiscal Year                     Staffing Ratio
                                 2006                              4.23
                                 2007                              4.46
                                 20081                             4.08
                                 2009                              5.06
                   Note 1: In FY 2008, ODAR hired a larger percentage of ALJs compared
                   to staff, which contributed to the drop in the national staffing ratio.


Using ODAR’s bi-weekly staffing report as of July 4, 2009, we found a total of
42 hearing offices 15 had staffing ratios below the 4.5 staffing ratio goal and, of those,
7 had staffing ratios below 4.0 (see Table 2). 16

        Table 2: Hearing Offices with Staffing Ratios Below 4.0 Staff per ALJ
                                          (as of July 4, 2009)
         Hearing Office                           Region                  Staffing Ratio
         Boston, Massachusetts                     Boston                      3.70
         Dover, Delaware                        Philadelphia                   3.80
         Washington, DC                         Philadelphia                   3.60
         Paducah, Kentucky                         Atlanta                     3.80
         Columbus, Ohio                           Chicago                      3.66
         Oak Park, Michigan                       Chicago                      3.77
         San Jose, California                  San Francisco                   3.95

Hearing Office staffing ratios ranged from a high of 14.2 in the Johnstown,
Pennsylvania, Hearing Office to a low of 3.6 in the Washington, DC, Hearing Office.
According to the Philadelphia Regional Management team, 17 the Region allowed the
Johnstown Hearing Office to hire extra support staff because the hearing office had
additional space to accommodate the staff. Besides performing its normal function, the




15
  While most of these 42 hearing offices were performing below the national disposition rate, we did find
some hearing offices that had higher than average disposition rates even though their staffing ratios were
below 4.5. In our August 2008 report, we noted ALJs had varying levels of productivity (both high and
low productivity) for internalized reasons, such as motivation and work ethic. In the report, we also
identified factors that can impact ALJ and hearing office productivity and processing times, including
factors related to DDS case development, staff levels, hearing dockets, favorable rates, individual ALJ
preferences, and Agency processes. See SSA, OIG, Congressional Response Report: Administrative
Law Judge and Hearing Office Performance (A-07-08-28094), August 2008.
16
   ODAR’s biweekly staffing report reflects a snapshot of an office that may vary depending on issues like
hiring, training, and attrition at a particular point in time.
17
   See Appendix C for more information on our scope and methodology. Also, see Appendix D for
information on the hearing and regional offices we contacted for this audit.
Page 6 - The Commissioner


Johnstown Hearing Office is being used as a regional “pulling unit” 18 that supports the
case preparation duties for other hearing offices in the Region.

Number of Managers

ODAR modified the staffing ratio formula to account for the different numbers of
managers among its hearing offices. As discussed in our March 2005 staffing report,
ODAR’s staffing ratio formula was calculated by removing three management positions
(Hearing Office Director, Hearing Office Systems Administrator, and Administrative
Assistant) from each hearing office. 19 However, in many large hearing offices, there are
more than three management positions, and in many small hearing offices, there are
fewer than three management positions. The prior formula overstated or understated
the staffing ratio, depending on the size and composition of managers in the hearing
office. In 2005, the formula was modified to reflect the exact number of managers in
each office. See Appendix E for a comparison of the staffing ratio at hearing offices
using the old and new staffing ratio formula.

Senior Attorney Adjudicators

While senior attorney adjudicators perform staffing duties of drafting decisions and
screening cases, they also spend some of their time issuing fully favorable, on-the-
record decisions—similar to work performed by ALJs. Hence, the same attorney can
act as support staff one moment and an ALJ the next, obscuring the staffing ratio line.
To obtain an accurate measure of its staffing ratio, we believe ODAR should consider
adjusting the staffing ratio again to account for the time that senior attorney adjudicators
are performing duties similar to ALJs. 20

HEARING OFFICE STAFFING MIX

In a February 2009 memorandum, ODAR’s Deputy Commissioner instructed the
Regional Offices to meet staffing mix goals by hiring at least 1.5 decision writers per
ALJ and 2.5 other support staff per ALJ in each of its hearing offices. We reviewed the
performance of hearing offices above and below these staffing mix ratios, and found
that a lack of decision writers had a greater impact on productivity then a lack of other
support staff.




18
   “Pulling” is a term used to prepare a disability case file for a hearing. A hearing office employee must
organize medical documents chronologically, number documents, remove duplicate documents, ensure
all pertinent documents are appropriately labeled, and prepare an exhibit list of pertinent documents.
19
  ODAR categorizes these management positions as non-workload related and therefore they are
removed when calculating the staffing ratio.
20
     We are planning a separate audit on the Senior Attorney Adjudicator program.
Page 7 - The Commissioner


Productivity Based on Decision Writer per ALJ Ratios

ODAR has instructed Regional Offices to meet a staffing mix goal of 1.5 decision writer
per ALJ in each of its hearing offices. 21 We examined FY 2009 hearing office
productivity through January 2009 and determined that hearing offices with at least
1.5 decision writers per ALJ had an average of almost 9 percent higher productivity
(dispositions per day per ALJ) than hearing offices with decision writer-to-ALJ ratios less
than the goal (see Table 3). In January 2009, 57 hearing offices had a decision writer-
to-ALJ ratio that was equal to or greater than the goal, while 83 hearing offices had a
ratio less than the goal. 22

      Table 3: Disposition Rate Comparison with Decision Writer per ALJ Ratios
                                        (As of January 2009)
                                                                         Average
                                             Number of Hearing          Disposition        Average
     Decision Writer per ALJ Ratio               Offices                   Rate           Difference
     Equal or above 1.5                             57                     2.28              +9%
     Below 1.5                                      83                     2.10                ---

In March 2009, ODAR received its FY 2009 appropriation and ARRA funding, and
through additional hiring, the number of hearing offices meeting the decision writer-per-
ALJ goal increased from 57 to 105 by July 2009 (see Figure 2). 23 However, since SSA
has cautioned that new employees will not have an immediate impact on hearing office
workloads, we did not recalculate the effect on productivity of the newly hired
employees.




21
  After our November 12, 2009, exit briefing with the Agency, ODAR increased the decision writer per
ALJ goal to 1.85. In November 23, 2009 staffing guidance to the Regions, ODAR’s Deputy
Commissioner wrote, “To reach a decision writer to ALJ ratio of 1.85, beginning January 1, 2010, regions
must focus all attrition replacement and new hiring on achieving that goal on a regional level.”
22
  The number of hearing offices did not total 142 because ODAR’s staffing report did not contain staffing
ratios for the Mayaguez, Puerto Rico, and Honolulu, Hawaii, Hearing Offices.
23
  By July 2009, we found 105 hearing offices were at or above the goal and 36 were below the goal. The
number of hearing offices did not total 142 because the July 2009 ODAR staffing report did not contain
staffing ratios for the Mayaguez, Puerto Rico, Hearing Office.
Page 8 - The Commissioner


Figure 2: Comparison of Decision Writer per ALJ Ratios at Hearing Offices

          Decision Writer per ALJ Ratio                      Decision Writer per ALJ Ratio
                  January 2009                                        July 2009
                                       57 Hearing Offices
                                       Equal or Above Goal                                  105 Hearing
                                                                                            Offices
                                                                                            Equal or Above
                                                                                            Goal




           83 Hearing Offices                                 36 Hearing Offices
           Below Goal                                         Below Goal


                    Note: SSA was unable to provide staffing data on all 142 hearing offices.

Even with the additional hiring, 36 hearing offices were below the decision writer-per-
ALJ goal, 24 including 12 of the 20 hearing offices in the San Francisco Region (see
Table 5). 25 The hearing offices in the San Francisco Region had higher than average
staffing ratios, but the staff was heavily weighted toward other support staff. We believe
more decision writers may have assisted with dispositions. According to the Regional
Chief Administrative Law Judge (RCALJ), the Region only had space for adding
cubicles for other support staff but not enough space for private offices that are required
for decision writers. 26 The RCALJ said they are hoping to add a centralized writing
unit 27 in the San Francisco Region to alleviate the shortage of decision writers.




24
 The majority of these 36 hearing offices was performing below the national disposition rate, but there
were a number of exceptions.
25
  Although we highlighted the San Francisco Region because of the number of hearing offices below the
decision writer goal, the Denver Region also had a similar percentage of hearing offices below this goal.
26
   Under the March 1998 Space Allocation Standard for the Office of Hearings and Appeals (later
renamed ODAR), hearing offices allow decision writers a private office, as they require privacy and quiet
to review cases and speak into dictation units without interruption or sound from other sources.
27
     We discuss Centralized Writing Units later in this report, as well as in Appendix F.
Page 9 - The Commissioner


    Table 5: Statistics on Hearing Offices and the Decision Writer per ALJ Goal
                                         (As of July 2009)
                                                                                     Percentage of
                                           Number of             Number of              Hearing
                                         Hearing Offices       Hearing Offices        Offices Not
                        Number of           Meeting             Not Meeting             Meeting
                     Hearing Offices     Decision Writer       Decision Writer         Decision
     Region           in the Region           Goal                  Goal              Writer Goal
 Boston                      7                  5                     2                   29%
 New York1                  13                  11                    2                   15%
 Philadelphia               18                 15                     3                   17%
 Atlanta                    31                  26                    5                   16%
 Chicago                    20                 14                     6                   30%
 Dallas                     16                  16                    0                    0%
 Kansas City                 7                   5                    2                   29%
 Denver                      5                   2                    3                   60%
 San Francisco              20                  8                    12                   60%
 Seattle                     4                   3                    1                   25%
 Total                     141                 105                   36                   26%
Note 1: The staffing report we received from ODAR did not include the staffing at the Mayaguez, Puerto
Rico, Hearing Office in the New York Region.

Productivity Based on Other Support Staff per ALJ Ratios

We examined FY 2009 hearing office productivity through January 2009 and found most
hearing offices had met the staffing mix goal of 2.5 other support staff per ALJ. In
addition, we found the productivity difference between offices equal to or above this
ratio was not significant, when compared to those offices under the goal (see Table 6).
Using ODAR’s January 2009 staffing report, we found that 116 of the 140 hearing
offices had met the goal for other support staff.
Page 10 - The Commissioner


     Table 6: Disposition Rate Comparison with Other Support Staff per ALJ Ratios
                                          (As of January 2009)
      Other Support Staff per           Number of Hearing          Average                       Average
             ALJ Ratio                       Offices           Disposition Rate                 Difference
     Equal or above 2.5                        116                   2.18                         +1.5%
     Below 2.5                                 24                   2.15                             --

As a result of the additional hiring in Spring of 2009, 28 133 hearing offices had met or
exceeded the 2.5 other support staff-per-ALJ ratio, while only 8 hearing offices had not
met the goal by July 2009 (see Figure 3). 29

       Figure 3: Comparing Other Support Staff per ALJ Ratios at Hearing Offices

          Other Support Staff per ALJ Ratio                      Other Support Staff per ALJ Ratio
                   January 2009                                             July 2009
                                         116 Hearing Offices
                                         Equal or Above Goal                              133 Hearing
                                                                                          Offices
                                                                                          Equal or Above
                                                                                          Goal




           24 Hearing Offices                                  8 Hearing Offices
           Below Goal                                          Below Goal


                    Note: SSA was unable to provide staffing data on all 142 hearing offices.

AUGMENTING HEARING OFFICE STAFFING SHORTAGES

To better understand the staffing issues, we conducted site visits and interviews with
ALJs, managers, and staff in six hearing offices and interviewed RCALJ management
teams in five Regions. 30 We found lack of consensus among these parties regarding an
ideal staffing ratio or mix of staff. Those we interviewed stated they had difficulty
achieving ideal staffing situations because of (1) fluctuating resources over the years to
replace departing ALJs, managers and staff; (2) space shortages in hearing offices; and
(3) difficulty backfilling some skill sets with existing staff.


28
     We did not recalculate the effect on productivity based on the newly hired employees.
29
  The eight Hearing Offices not meeting the other support staff per ALJ goal were Albany, New York;
Boston, Massachusetts; Elkins Park, Pennsylvania; Greensboro, South Carolina; Madison, Wisconsin;
Paducah, Kentucky; Tulsa, Oklahoma; and Washington, D.C.
30
     See Appendix D for the hearing office selection criteria.
Page 11 - The Commissioner


As a result of these variables, some hearing offices needed more decision writers and
some needed other support staff. As noted earlier, one regional manager stated the
decision writers are more difficult to hire because hearing offices have space shortages
and cannot build the number of private offices required for decision writers. In another
case, a manager at a hearing office said her office had extra office space and therefore
hired more decision writers to write decisions for other hearing offices. Finally, since the
skill set for decision writers is more specialized than for other support staff, their work
cannot be duplicated by others inside or outside the hearing office. 31 For example, staff
from other SSA components can assist with some of the pulling and administrative
tasks associated with preparing a case. However, this staff would not have the
expertise to assist with decision writing.

Commissioner Initiatives

To augment staffing shortages in hearing offices, ODAR has begun implementing a
number of initiatives to assist hearing offices in processing its workloads, including
Operations Overtime Assistance, Centralized Pulling and Writing Units, Service Area
Realignments, and the National Hearing Centers. The first two initiatives augment a
hearing office’s support staff by assisting with a portion of the processing while allowing
the case to remain with that same hearing office, whereas the last two initiatives are
designed to move the hearing workload to another location for another team to
complete the case more or less in its entirety.

For example, under the Operations Overtime Assistance initiative, staff from teleservice
centers can assist hearing offices with some of the pulling and administrative tasks
associated with preparing a case. However, this case would still remain with the original
hearing office.

Under the Centralized Writing and Pulling Units initiative, a portion of the support staff
work—decision writing and pulling duties—would be handled by ODAR staff in another
location. 32 The number of centralized units has grown over the years (see Table 7).
Under the initiative, ODAR is considering expanding the use of such centralized units. 33
In addition, some Regions use teams of attorneys in the regional offices to write the
decisions. Four of the six hearing offices we reviewed temporarily transfer claims to
other hearing offices for decision writing and pulling assistance to help reduce their

31
  This may explain why the lack of other support staff in the hearing offices did not impact productivity as
much as the lack of decision writers—the hearing offices had more ways to make up for the loss of other
support staff.
32
  ODAR is staffing these units with Federal employees. In past initiatives, ODAR used contractors for
pulling the files, but we identified a number of problems relating to those contracts. See our earlier report,
The Effects of Staffing on Hearing Office Performance (A-12-04-14098), March 2005.
33
   Depending on the timing of the FY 2010 appropriations, ODAR is hoping to add two new units during
this FY—one in McLean, Virginia, and the other in St Louis, Missouri. ODAR noted that because of the
General Services Administration’s space and facility requirements, it could take 18 to 24 months to
establish a new unit.
Page 12 - The Commissioner


backlogs. Additional centralized writing and pulling centers would assist hearing offices
that lack the right number or composition of staff, while also providing management with
greater flexibility to address unforeseen workload changes.

                              Table 7: Centralized Units in ODAR
                                        (FYs 2008 - 2009)
     Type of Centralized          Number of Regions with Each Type of Centralized Unit
             Unit                    FY 2008                        FY 2009
       Decision Writing                 6                               8
           Pulling                      1                               3

STAFFING MIX RATIO GUIDANCE

While ODAR has set a staffing ratio goal of 4.5 staff per ALJ, adding the two staffing mix
goals sums to only 4.0 staff per ALJ. At the time of our review, ODAR had not
established any clear guidance as to how this 0.5 staff allocation should be used. As
shown in our earlier analysis, the decision writers are more likely to be under-
represented in the ratios because of their use as senior attorney adjudicators. In
addition, office productivity was more negatively affected by the lack of decision writers
than a lack of other support staff, in part because these decision writer duties are more
difficult to augment. For these reasons, we believe ODAR should increase the decision
writer-per-ALJ staffing mix ratio before adjusting the other support staff ratio. For
example, under the current 4.5 support staff-per-ALJ staffing ratio, ODAR could modify
the staffing mix from 1.5 decision writers per ALJ to 2.0 decision writers per ALJ. 34 At
our exit briefing with SSA, ODAR’s Deputy Commissioner stated his office was
contemplating increasing the decision writers-per-ALJ ratio to 1.85. 35

CONCLUSION AND RECOMMENDATIONS
Overall, ODAR had exceeded its national staffing ratio goal, though, as of July 2009,
42 hearing offices were still below the goal. In addition, we found ODAR’s staffing ratios
did not account for the different roles the attorney adjudicators played in each hearing
office. Our analysis found that hearing offices with at least 1.5 decision writers per ALJ
had disposition rates about 9 percent higher than those offices under the goal. ODAR
managers and staff noted a number of factors went into achieving an ideal staffing mix.
ODAR has also expanded the use of centralized pulling and writing units to enhance the
skill sets available to hearing offices and further assist hearing offices in processing
workloads. ODAR could further enhance hearing office productivity by adjusting the
staffing mix to require more decision writers, since this skill set is diluted by the Senior
Attorney Adjudicators program and more difficult to replace when assisted by non-
ODAR components.

34
  The final figures associated with each element in the staffing mix ratio will depend on any future
changes to the staffing ratio.
35
   As noted earlier, after our meeting with the Agency, ODAR increased the decision writer per ALJ goal
to 1.85 in November 23, 2009 staffing guidance to the Regions.
Page 13 - The Commissioner



To meet its staffing ratio and staffing mix goals in all its hearing offices, we recommend
that ODAR:

1. To the extent possible, consider adding new hires to hearing offices below the
   4.0 staffing ratio before offices already above this ratio.

2. Continue expanding the use of centralized pulling and writing centers to assist
   hearing offices in processing pending claims.

3. Determine how the attorney adjudicators’ new duties of issuing decisions affect the
   staffing ratio and adjust the ratio based on this analysis.

4. Consider modifying the staffing mix by increasing the number of decision writers per
   ALJ to fully define the staffing ratio goal of 4.5 staff per ALJ.

AGENCY COMMENTS
The Agency agreed with all our recommendations (see Appendix G).



                                                 S
                                                 Patrick P. O’Carroll, Jr.
                                        Appendices
APPENDIX A – Acronyms

APPENDIX B – Hearing Office Organizational Chart and Position Descriptions

APPENDIX C – Scope and Methodology

APPENDIX D – Hearing Office Selection Criteria

APPENDIX E – Calculating Hearing Office Staffing Ratios

APPENDIX F – Initiatives Related to Hearing Office Staffing

APPENDIX G – Agency Comments

APPENDIX H – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
AA         Attorney Advisor
ALJ        Administrative Law Judge
CIA        Case Intake Assistant
CT         Case Technician
DDS        Disability Determination Services
FY         Fiscal Year
FR         Federal Register
GS         Group Supervisor
HOCALJ     Hearing Office Chief Administrative Law Judge
HOD        Hearing Office Director
HOSA       Hearing Office System Administrator
LCT        Lead Case Technician
M.S.P.R.   United States Merit Systems Protection Board Reporter
ODAR       Office of Disability Adjudication and Review
OIG        Office of the Inspector General
OPM        Office of Personnel Management
PA         Paralegal Analyst
RCALJ      Regional Chief Administrative Law Judge
SAA        Senior Attorney Advisor
SAR        Service Area Realignment
SCT        Senior Case Technician
SSA        Social Security Administration
                                                                   Appendix B

Hearing Office Organizational Chart and
Position Descriptions

                             Hearing Office
                               Chief ALJ


    ALJ        ALJ           ALJ         ALJ        ALJ          ALJ


                             Hearing Office
                               Director



                                Group
                              Supervisor



   Lead Case Technician
   Senior Case Technicians          Attorney Advisors             Senior Attorney
   Case Technicians                 Paralegal Analysts            Advisors



                                         Hearing Office Systems Administrator
   Receptionist
   Case Intake Analyst
   Contact Representative
                                                        Administrative Assistant
                                    = Management

                                    = Bargaining Unit Position

                                    = Non-bargaining Position




                                      B-1
              HEARING OFFICE POSITION DESCRIPTIONS
              Title                                   Position Description
Hearing Office Chief             The HOCALJ is directly responsible for all program and
Administrative Law Judge         administrative matters concerning the Social Security
(HOCALJ)                         Administration’s (SSA) hearing process in the hearing
                                 office. The HOCALJ is the first-line supervisor to
                                 administrative law judges, Supervisory Staff Attorney, and
                                 Hearing Office Director. The HOCALJ has full
                                 responsibility and full authority to hold hearings and issue
                                 decisions made while administering Titles II and XVI of
                                 the Social Security Act.
Administrative Law Judge (ALJ)   The ALJ holds hearings and makes and issues decisions
                                 on appeals from determinations made in administering
                                 Titles II and XVI of the Social Security Act.
Hearing Office Director (HOD)    The HOD serves as the principal management adviser to
                                 the HOCALJ and participates significantly with the
                                 HOCALJ in the overall management and administration of
                                 the hearing office. The HOD supervises, plans,
                                 organizes, and controls operating activities in a hearing
                                 office.
Group Supervisor (GS)            The GS is the first-line supervisor of the Attorney Advisor,
                                 the Paralegal Analyst, Lead Case Technician, Senior
                                 Case Technician, and the Case Technician. The GS
                                 directs all the activities of employees assigned to the
                                 group to ensure the efficient, timely and legally sufficient
                                 processing of hearing office cases.
Senior Attorney Advisor (SAA)    The SAA reviews selected cases to determine factual and
                                 legal issues to determine if a fully favorable on-the-record
                                 decision can be issued under Titles II and XVI of the
                                 Social Security Act. The SAA also renders advice and
                                 assistance to the ALJ in pre-hearing development and
                                 preparation of cases for hearing, post-hearing
                                 development, and other post-hearing actions. The SSA
                                 analyzes, researches, and develops cases, while also
                                 formulating and drafting comprehensive decisions for the
                                 ALJ.
Attorney Adviser (AA)            The AA renders advice and assistance to the ALJ in pre-
                                 hearing development and preparation of cases for
                                 hearing, post-hearing development, and other post-
                                 hearing actions. The AA analyzes, researches, and
                                 develops cases, while also formulating and drafting
                                 comprehensive decisions for the ALJ.
Paralegal Analyst (PA)           The PA assists the ALJ in formulating the case decision.
                                 The PA evaluates all program, legal, and medical aspects
                                 of the case, including exhibits, all testimony, all pertinent
                                 laws and regulations, and precedent court cases.




                                         B-2
                Title                                        Position Description
    Lead Case Technician (LCT)           The LCT is responsible for leading the work of three or
                                         more employees engaged in developing and processing a
                                         request for hearing from its receipt in the hearing office to
                                         its completion. The LCT processes more complex
                                         hearing cases where analysis of pertinent issues and
                                         interpretation of the provisions of laws, regulations,
                                         rulings, precedents, policies, procedures, and guidelines
                                         relative to the case are necessary.
    Senior Case Technician (SCT)         The SCT duties consist of processing more complex
                                         hearing cases. The SCT prepares case summaries by
                                         outlining, in narrative form, information from all
                                         documents that reflect the prior medical history of the
                                         claimant and treatment undertaken as well as any
                                         conflicting medical evidence.
    Case Technician (CT)                 The CT reviews and analyzes a wide variety of medical
                                         and legal documentation, records, and evidence to
                                         ensure that case files are received and developed in
                                         accordance with legal and regulatory authorities. The CT
                                         also schedules cases for a hearing in accordance with
                                         legal and regulatory requirements and coordinates the
                                         time and date of the hearing with claimants,
                                         representatives, expert witnesses, and hearing reporters.
    Hearing Office System                The HOSA installs, configures, upgrades, and
    Administrator (HOSA)                 troubleshoots hearing office information technology
                                         hardware and software. The HOSA serves as the focal
                                         point in the ongoing support of information technology
                                         initiatives.
    Administrative Assistant             The administrative assistant is responsible for providing
                                         day-to-day administrative management services essential
                                         for the operation of the hearing office. These services
                                         include aspects of budget execution and formulation,
                                         personnel administration, procurement and supply,
                                         contract administration, travel, payroll services, and
                                         reports management.
    Case Intake Assistant (CIA)          This is a specialized case assistant position, in that a
                                         majority of the work involves Master Docket 1 duties. The
                                         CIA is responsible for developing and processing a case
                                         from its receipt in the office to its completion. The CIA
                                         reviews and analyzes the case to ensure sufficiency of
                                         evidence and to ensure that the case is ready to hear.
                                         Also, the CIA contacts the claimant to secure current
                                         evidence of record.




1
 Office of Disability Adjudication and Review hearing offices maintain a Master Docket system that
contains all requests for hearings and remanded claims.


                                                  B-3
               Title                        Position Description
Receptionist             The receptionist provides information in person and/or
                         over the telephone in response to inquiries concerning
                         the general responsibilities, functions, program activities,
                         and personnel of the hearing office as well as performing
                         other general clerical activities.
Contact Representative   The contact representative is responsible for dispensing
                         information to the public, in person or by telephone,
                         explaining the legal provisions, regulations, and
                         procedural requirements for obtaining benefits under the
                         Social Security program as they relate to a specific case.
                         The contract representative also explains the application
                         of regulatory provisions and the bases for the Agency’s
                         determinations in individual cases.




                                 B-4
                                                                        Appendix C

Scope and Methodology
To meet the objective of this audit, we:

     Reviewed Social Security Administration (SSA) Office of the Inspector General
      reports, Government Accountability Office reports, and congressional testimonies
      by SSA officials.

     Reviewed (1) the Office of Disability Adjudication and Review’s (ODAR) staffing
      reports, position descriptions, Workload Reports, Case Processing and
      Management System reports; (2) SSA’s Performance and Accountability reports;
      and (3) SSA’s Initiatives to Reduce and Eliminate the Hearings Backlog.

     Reviewed ODAR’s bi-weekly staffing reports to analyze the number of staff in
      each hearing office and track the staff to administrative law judge (ALJ) ratios and
      staffing mix ratios in each hearing office. We compared the productivity in each
      hearing office based on those hearing offices that met the staffing mix goals and
      those hearing offices that fell short of the goal. We also plotted the trends in ALJ
      hearing office management and staff hiring over the last decade.

     Interviewed staff and managers in six hearing offices to verify the staffing reports
      and ratios and to discuss how staffing issues affect productivity and timeliness.
      We also interviewed five Regional Management teams as well as ODAR
      headquarters personnel regarding staffing issues. See Appendix D for our
      hearing office selection criteria.

We found the staffing data used in our review to be sufficiently reliable to meet our audit
objective. The entity audited was the Office of the Deputy Commissioner for Disability
Adjudication and Review. We performed our review from November 2008 through
October 2009 in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.
                                                                               Appendix D

Hearing Office Selection Criteria
The Social Security Administration’s (SSA) Office of Disability Adjudication and Review
(ODAR) has 142 hearing offices throughout the United States and Puerto Rico. The
hearing offices range in size from small offices (fewer than seven administrative law
judges [ALJ]) to medium hearing offices (seven or eight ALJs) to large hearing offices
(more than eight ALJs). All hearing offices have the same core staff and perform the
same function—hold hearings and issue decisions—as part of SSA's process for
determining whether a person may receive benefits.

We selected six hearing offices based on a combination of factors. One factor was
hearing office size (small, medium, or large). Another factor was hearing office
performance. We used two measures that ODAR deemed most important:
(1) disposition rate (number of dispositions per day per ALJ) and (2) average processing
time. Each hearing office was ranked by disposition rate and average processing time
over the last 3 fiscal years (FY). Hearing offices that were in the top 20 for either the
disposition rate or average processing time for 2 of the past 3 FYs were considered top
performers. Hearing offices that were in the bottom 20 for either disposition rate or
average processing time for 2 of the past 3 FYs were considered low performers. We
also considered a wide geographic distribution to maximize national coverage.

HEARING OFFICES SELECTED FOR THIS REVIEW
We selected 1 small, 1 medium, and 1 large hearing office in the top 20 performing
hearing offices for either the disposition rate or average processing time (see
Table D-1).
                       Table D-1: Top Performing Hearing Offices
 Hearing Office Name                      Region                Hearing Office Size
 Charlottesville, Virginia        Region III: Philadelphia                     Small
 Shreveport, Louisiana            Region VI: Dallas                           Medium
 Albany, New York                 Region II: New York                          Large
Note: Performance level based on the number of dispositions per day per ALJ or average processing
time for FYs 2006-2008.

We selected 1 small, 1 medium, and 1 large hearing office in the bottom 20 performing
hearing offices (see Table D-2).




                                                D-1
                       Table D-2: Low Performing Hearing Offices
 Hearing Office Name                          Region                    Hearing Office Size
 Santa Barbara, California         Region IX: San Francisco                   Small
 Lansing, Michigan                 Region V: Chicago                         Medium
 Portland, Oregon                  Region X: Seattle                          Large
Note: Performance level based on the number of dispositions per day per ALJ or average processing
time for FYs 2006-2008.

We also spoke to regional office management teams in five Regions: Philadelphia
(Region III), Atlanta (Region IV), Chicago (Region V), Dallas (Region VI), and San
Francisco (Region IX).




                                                D-2
                                                                                   Appendix E

Calculating Hearing Office Staffing Ratios
Hearing offices are different size 1 and have different numbers of managers. Previously,
the Office of Disability Adjudication and Review’s (ODAR) staffing ratio formula
automatically excluded three management positions (Hearing Office Director, Hearing
Office Systems Administrator, and Administrative Assistant) from each hearing office,
regardless of the number of managers in each hearing office. However, in large hearing
offices, there were more than three management positions, and in small hearing offices,
there were fewer than three management positions. 2 The prior formula used to
calculate the number of support staff per administrative law judge (ALJ), therefore,
either overstated or understated the staffing ratio depending on the size of the hearing
office. In 2005, ODAR modified the formula to reflect the exact number of managers in
each office.

In Table E-1, we provide an example of how the old formula overstated the staffing
ratio. In this example, this large hearing office has seven managers. Under the old
staffing ratio formula, ODAR removed only three manager positions from the formula
leaving a support staff ratio of 3.92. However, under the new formula, ODAR removes
the actual number of management positions, so the staffing ratio is now 3.58.

          Table E-1: Example of Old Formula Overstating the Staffing Ratio1
                     (Calculated for a Hearing Office with Seven Managers)
                                           Number of
                                         Administrative      Number of     Support Staff
        Formula        Total on Duty      Law Judges         Managers         Ratio
    Old Formula              62                12                3             3.92
    New Formula              62                12                7             3.58
Note: Staffing ratio formula for each hearing office: Total staff on duty minus number of ALJs minus
management positions divided by number of ALJs.

Conversely, Table E-2 provides an example of understating the staffing ratio. In this
second example, this small hearing office has only one management position. Under
the old staffing ratio formula, ODAR would remove three management positions from
the formula leaving a staffing ratio of 3.00. However, under the new formula, ODAR
removes the actual number of management positions, so the staffing ratio is now 3.67.




1
 We categorize hearing offices by size with small size hearing offices having fewer than seven
administrative law judges (ALJ), medium size hearing offices having seven or eight ALJs, and large size
hearing offices having more than eight ALJs.
2
  ODAR categorizes these management positions as non-workload related and therefore they were
removed when calculating the staffing ratio.


                                                   E-1
         Table E-2: Example of Old Formula Understating the Staffing Ratio1
                       (Calculated for a Hearing Office with One Manager)
                                           Number of
                                         Administrative      Number of                 Support Staff
     Formula            Total on Duty     Law Judges          Managers                    Ratio
 Old Formula                  15                3                3                         3.00
 New Formula                  15                3                1                         3.67
Note: Staffing ratio formula for each hearing office: total staff on duty minus number of ALJs minus
management positions divided by number of ALJs.




                                                   E-2
                                                                                  Appendix F

Initiatives Related to Hearing Office Staffing
In his May 2007 testimony to Congress 1 Commissioner Astrue reported that the Social
Security Administration (SSA) had developed a number of initiatives to eliminate the
backlog of pending claims at the hearings level and prevent its recurrence. In our
review of these initiatives, we identified the following initiatives affecting staffing in the
hearing office.

Senior Attorney Adjudicator Initiative

The purpose of this initiative is to allow senior attorney adjudicators to issue fully
favorable, on-the-record decisions. The goal is to expedite the decisions and conserve
administrative law judge (ALJ) resources for the more complex cases that require a
hearing. This initiative uses an approach similar to that of the Senior Attorney
Adjudicator program that operated between 1995 and 2000.

Guidance for the Senior Attorney Adjudicator program was issued in a November 2007
Chief Judge Bulletin (CJB 07-10). Per the Bulletin, all hearing office GS-13 senior
attorneys advisors, supervisory attorney advisors (hearing office directors), supervisory
attorney advisors (group supervisors), and attorneys in the regional offices at the GS-13
level and above are authorized to issue fully favorable decisions. Hearing office
managers assign cases to the senior attorney adjudicators and decide the amount of
time these attorney adjudicators will devote to the adjudication duties. In July 2009, the
Senior Attorney Adjudicator program was extended for an additional 2 years. 2 Senior
attorney adjudicators will also continue to draft decisions for ALJs as part of their normal
decision writer duties.

Operations Overtime Assistance Initiative

The Operations Overtime Assistance began on June 23, 2007. Operations employees
assist hearing offices with routine hearing office tasks including: folder assembly,
burning compact discs, associating paper mail, application and query printing, expert
witness photocopying, scanning, alphabetizing, mailing decisions, photocopying for
consultative examination requests, filing closed files, folder audit or inventory, creating
barcodes, and filing ALJ folders. All of these tasks support the work normally performed
by other support staff in the hearing offices. Table F-1 illustrates the overtime hours
that Operations employees worked from Fiscal Year (FY) 2007 through May 2009.

1
 The Social Security Administration’s Plans to Reduce the Disability Backlogs, Statement of
Commissioner Michael J. Astrue before the Senate Finance Committee, May 23, 2007.
2
 To increase the number of decisions being issued, SSA’s final rule extending the sunset date of the
Attorney Adjudicator authority to August 10, 2011 was published on July 13, 2009 in the Federal Register
(FR), 74 FR 33327.


                                                  F-1
             Table F-1: Operations Overtime to Support Hearing Offices
                                        (As of May 2009)
               Fiscal Year           Operations Employee Overtime Hours
              FY 20071                              32,343
              FY 2008                               62,863
              FY 2009                               32,412
             Note 1: Initiative started in June 2007.

Centralized Pulling Units and Centralized Writing Units Initiative

Centralized pulling and writing units augment staffing shortages at hearing offices that
do not have an adequate staffing ratio and/or an adequate staffing mix to process their
pending workloads. The Office of Disability Adjudication and Review (ODAR) is using
centralized pulling units staffed by ODAR employees to assist hearing offices in the
routine work of folder assembly, as described above in the Operations Overtime
Assistance initiative.

In terms of centralized case pulling, electronic claim folders containing the claimant’s
request for a hearing are sent electronically from the hearing offices to the centralized
location for pulling. After the claim is pulled, it is sent back electronically to the hearing
office. ODAR added two centralized pulling units in the last year (see Table F-2),
bringing the count of Regions with such units to a total of three. ODAR is considering
expanding centralized pulling units in FY 2010, but this will depend on the availability of
funds.

ODAR has also expanded its use of centralized writing units, and hopes to continue this
trend should funding be available. ODAR’s count of centralized writing units grew to
eight in FY 2009 (see Table F-2). These units, staffed by ODAR employees, provide
decision-writing services for hearing offices. The process of electronically transferring
claims is similar to the process described in pulling. The decisions are written in
preparation for the ALJ’s final disposition and signature.

               Table F-2: Centralized Units in ODAR (FYs 2008 - 2009)
                                   Number of Regions With This Type of Centralized
 Type of Centralized Unit                              Unit
                                        FY 2008                    FY 2009
          Pulling                          1                           3
      Decision Writing                     5                           8

Service Area Realignment Initiative

The Service Area Realignment (SAR) initiative was implemented in FY 2007. This
initiative has a two-phased strategy. In the first phase, claims are permanently
transferred from one Region to another. The permanent claim transfers are made on a
flow basis and designed to decrease aged pending workloads of heavily impacted




                                                  F-2
hearing offices. 3 In the second phase, SSA field offices are realigned from hearing
offices in high workload Regions to hearing offices in lower workload Regions. New
claims submitted into the realigned SSA field offices are processed and heard at
hearing offices in a different part of the country from where the claimant lives, usually by
video-conference.

National Hearing Centers and Video Hearings Initiatives

In conjunction with the SAR initiative, ODAR implemented the National Hearing Center 4
and Video Hearing 5 initiatives to assist in processing claims in heavily impacted
Regions and hearing offices. These initiatives allow claims to be transferred within and
between Regions and then heard electronically using video technology. According to
ODAR, claims being transferred into National Hearing Centers are coming from areas of
the country with the largest backlogs. 6




3
 ODAR’s Office of the Chief Administrative Law Judge manages all hearing office claim transfers made
between the 10 Regions, whereas hearing office claim transfers within each Region are being managed
by the Regional Chief ALJs.
4
 ODAR has NHC locations in Albuquerque, New Mexico; Baltimore, Maryland; Chicago, Illinois; and Falls
Church, Virginia. A fifth NHC is planned for St. Louis, Missouri, in FY 2010.
5
    We are completing an audit of the Video Hearing initiative.
6
 For a more detailed analysis of the SAR and National Hearing Center initiatives, see our September
2009 report, Aged Claims at the Hearing Level (A-12-08-18071).


                                                      F-3
                  Appendix G

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      January 11, 2010                                                       Refer To: S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel /s/
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Hearing Office Performance and Staffing”
           (A-12-08-28088)


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report findings and
           recommendations.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                          G-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “HEARING OFFICE PERFORMANCE AND STAFFING” (A-12-08-28088)


Overall, we agree with the results of this review and the intent of the recommendations. We
began implementing initiatives that align with the recommendations prior to OIG’s audit. In
addition, we appreciate the report’s description of our efforts to address productivity, including
the senior attorney initiative, the operations overtime assistance initiative, establishment of
centralized pulling and writing units, the service area realignment initiative, and establishment of
the national hearing centers and video hearing units. Below are our responses to the specific
recommendations:


Recommendation 1

To the extent possible, consider adding new hires to hearing offices below the 4.0 staffing ratio
before offices already above this ratio.

Comment

We agree. We already have an initiative in place to maintain sufficient hearing office staffing.
On November 23, 2009, the Office of Disability Adjudication and Review issued fiscal year
(FY) 2010 hiring authority and staffing guidance to its regional management teams. That
instructed regions to target a staff ratio of 4.5 staff at the regional level.

Please note that, in some offices where we do not have space to accommodate the ideal number
of staff, the hiring guidance is a minimum staff ratio of 4.0.

Recommendation 2

Continue expanding the use of centralized pulling and writing centers to assist hearing offices in
processing pending claims.

Comment

This initiative is already part of our Disability Reduction Plan. We are in the process of
establishing new centralized units with a decision writing unit planned for McLean, Virginia and
a screening/pulling/writing unit in St. Louis, Missouri. The report should acknowledge that due
to the General Services Administration’s space and facility requirements, it could take
18 to 24 months to establish these units.




                                                G-2
Recommendation 3

Determine how the attorney adjudicators’ new duties of issuing decisions affect the staffing ratio
and adjust the ratio based on this analysis.

Comment

We already take the dual roles of an attorney adjudicator (staff decision writer and case
adjudicator) into account. In our November 23, 2009, hiring authority guidance, we raised the
decision writer to ALJ ratio from 1.75 to 1.85 in most offices. The exception is offices that have
significant space constraints and therefore have a ratio of 4.0, 1.5 decision writers and 2.5 other
support staff.

Recommendation 4

Consider modifying the staffing mix by increasing the number of decision writers per ALJ to
fully define the staffing ratio goal of 4.5 staff per ALJ.

Comment

We raised the decision writer to ALJ ratio from 1.75 to 1.85. We continue to strive to reach a
4.5 ratio at the regional level. We plan to use the staffing resources we have received in
FY 2010 to achieve that objective.


(SSA also provided technical comments, which have been addressed, where
appropriate, in this report.)




                                                G-3
                                                                     Appendix H

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Chicago Audit Division
   Nicholas Milanek, Audit Manager, Falls Church Office

Acknowledgments

In addition to those named above:

   Mary Ann Braycich, Senior Program Analyst
   Yaquelin Lara, Auditor
   Faisal Khan, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-12-08-28088.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
